           U.S. Department of
                                                                  Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   INFORMATION: Audit Announcement:                                                 Date:    November 29, 2004
           Implementation of Pipeline and Hazardous
           Materials Safety Mandates and Recommendations
           Research and Special Programs Administration
           Project No. 05B3001B000

  From:    Alexis M. Stefani                                                             Reply to
                                                                                         Attn. of:   JA-60
           Principal Assistant Inspector General
            for Auditing and Evaluation
    To:    Deputy Administrator
           Research and Special Programs Administration

           As required by the Norman Y. Mineta Research and Special Programs
           Improvement Act,1 the Office of Inspector General (OIG) plans to conduct an
           audit of the progress of the Research and Special Programs Administration’s
           Office of Pipeline Safety (OPS) and Office of Hazardous Materials Safety (HMS)
           in implementing congressional mandates and other safety recommendations for
           improving pipeline and hazardous materials safety.

           The Act requires the Inspector General to provide a report to the Secretary of
           Transportation and the Administrator of the Pipeline and Hazardous Materials
           Safety Administration containing a list of outstanding congressional mandates and
           open safety recommendations made by the National Transportation Safety Board
           (NTSB) or OIG regarding pipeline safety and hazardous materials safety. The
           objective of the audit is to assess OPS’s and HMS’s progress in implementing
           both congressional mandates and NTSB and OIG pipeline and hazardous materials
           safety recommendations.

           We plan to begin the audit the week of December 6, 2004. The audit will be
           conducted at the Offices of Pipeline Safety and Hazardous Materials Safety in
           Washington, DC, and will be performed by staff from the


           1
               The Act created, among other things, the Pipeline and Hazardous Materials Safety Administration in the Department
               of Transportation.
                                                                                 2

San Francisco, California, office. We will contact your audit liaison to arrange an
entrance conference.

If you have any questions or need additional information prior to the entrance
conference, please contact me at (202) 366-1992 or Ms. Robin K. Hunt, Deputy
Assistant Inspector General for Hazardous Materials, Security and Special
Programs, at (415) 744-3090.

                                        #

cc: Edward Brigham, DRP-2
    Stacey Gerard, DPS-1
    Robert McGuire, DHM-1
    Michael Hartley, DMA-10
    Timothy Cline, DPP-1
    Martin Gertel, M-1
